OIG Audit Report 02-24
Working Capital Fund
Annual Financial Statement
Fiscal Year 2001
Report No. 02-24
June, 2002
Office of the Inspector General
COMMENTARY AND SUMMARY
The Working Capital Fund (WCF) is a revolving fund created primarily to provide certain administrative services to the Department on a centralized basis.  The WCF is reimbursed for the cost of these services, which includes an amount for operating expenses of the fund.  The WCF also serves as the custodian for amounts collected through civil debt litigation and has the authority to retain up to three percent of these collections.  The WCF does not receive appropriated monies from Congress, but is allowed to receive unobligated prior year appropriations from other Department of Justice components.  Amounts transferred to the WCF may be used for the acquisition or improvement of automated systems and capital equipment.
This audit report contains the financial statement of the WCF for the fiscal years ended September 30, 2001 and 2000.  Under the direction of the Office of the Inspector General, the audit was performed by PricewaterhouseCoopers LLP (PwC) which resulted in an unqualified opinion on the FY 2001 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  For FY 2000, the WCF also received an unqualified opinion on its financial statements (OIG Report 01-21).
Improvements have been made in internal controls and the financial reporting process.  All prior year reportable conditions have been completed and no findings or recommendations were reported.  Issues identified by PwC were limited to matters considered to be less significant, and these were communicated to management in a separate letter.  No instances of noncompliance with laws and regulations were cited.